OIG Investigative Reports, Portland Woman Sentenced on Immigration and Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
October 16, 2007
U.S. Department of Justice
United States Attorney
District of Maine
100 Middle Street
6th Floor, East Tower
Portland, ME 04101
(207) 780-3257
Fax: (207) 780-3304
TTY: (207) 780-3060
Contact: James Chapman
Assistant U.S. Attorney
Tel: (207) 780-3257
http://www.usdoj.gov/usao/me
Portland Woman Sentenced on Immigration and Fraud Charges
Paula D. Silsby, United States Attorney for the District of Maine, announced
today that on October 15, 2007, Chief Judge George Z. Singal sentenced Dona
Daoud Adam, also known as Amina Ismail-Youssouff, in U.S. District Court in
Portland, to 12 months and one day in jail to be followed by three years of
supervised release. Adam previously pleaded guilty on June 28, 2007 to using
an immigration document obtained under false pretenses, lying to an immigration
officer, and two counts of making false statements to U.S. government agencies
to obtain food stamps, TANF and Parents as Scholars funds, Medicaid benefits
and federal student financial aid. In addition to the prison sentence, Judge
Singal also ordered that the defendant pay $120,917.69 in restitution to the
victims in this case. He also ordered that the defendant be deported from the
United States when she completes her prison term.
Originally from the country of Somalia, Adam, 38 years old, of Portland moved
to Canada in 1993 using her real name, "Amina Ismail-Youssouff," and obtained
Canadian citizenship in 1999. However, in July of 1999, she moved to the United
States, changed her name to "Dona Adam," and obtained asylum status under fraudulent
pretenses by failing to disclose that she was a resident of Canada and had already
received immigration benefits in that country.
In 2002 Adam moved to Maine and used her fraudulent immigration status to apply
for and receive welfare benefits with the Maine Department of Human Services
under the name "Dona Adam." She also applied for and received federal student
financial aid from 2001 to 2007 by submitting false applications stating that
she was an "eligible non-citizen." The defendant obtained more than $120,000
in federal food stamps, TANF funds, Parents as Scholars assistance, Medicaid
benefits, and federal student aid to which she was not entitled because she
was an illegal alien. Adam is also a former board member of the Immigrant Legal
Advocacy Project of Maine. The defendant also pleaded guilty to making false
statements to a U.S. immigration officer in February of 2006 when she was interviewed
in connection with her application for permanent resident status in the United
States.
U.S. Attorney Silsby stated that her office is fully committed to prosecuting
immigration fraud, especially against individuals that use fraudulent immigration
documents to rob the public fisc. She praised the cooperative efforts of special
agents from the U.S. Bureau of Immigration and Customs Enforcement, the U.S.
Department of Health and Human Services, the U.S. Department of Agriculture,
the U.S. Department of Education, the FBI, and the Maine Department of Health
and Human Services, Fraud, Investigation and Recovery Unit, all of whom participated
in the investigation and prosecution of this case.
###
Top
Printable view
Share this page
Last Modified: 10/19/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov